2311 Douglas Street CC ICKLE s E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-893

DR. SHIMON WARONKER,,
Petitioner,
v.
HEMPSTEAD UNION FREE SCHOOL DISTRICT, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 30th day of March, 2020, send out
from Omaha, NE | package(s) containing 3 copies of the REPLY BRIEF FOR PETITIONER in the above entitled case. All
parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar days.
Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
ERWIN CHEMERINSK Y
Counsel of Record
UNIVERSITY OF CALIFORNIA
BERKELEY SCHOOL OF LAW
215 Boalt Hall
Berkeley, California 94720
echemerinsky@law.berkeley.edu
(510) 642-6483

FREDERICK K. BREWINGTON

LAW OFFICES OF FREDERICK K. BREWINGTON
556 Peninsula Boulevard

Hempstead, New York 11550
fred@brewingtonlaw.com

(516) 489-6959

Counsel for Petitioner

Subscribed and sworn to before me this 30th day of March, 2020.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

    

on Caden CL

Affiant

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS

My Comm. Exp. September 5, 2023

 

 

Notary Public
 

Attomeys for Respondents

Austin Reis Graff The Scher Law Firm, LLP 516-746-5040
Counsel of Record. One Old Country Road, Suite 385
Carle Place, NY 11514

agraff@scherlawfirm.com

Party name: Hempstead Union Free School District, et al.

 
